CITY OF

SAN JOSE

Office of the City Attorney

CAPITAL OF SILICON VALLEY

RICHARD DOYLE, CITY ATTORNEY

MATTHEW PRITCHARD
Deputy City Attorney
Direct Line: (408) 535-1205

May 5, 2020

Via Federal Express
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Loci Rodriguez et al. v. City of San Jose, et al.
No. 19-1057

Dear Mr. Harris:
I represent Respondents in the above-referenced matter. The response in
opposition to the petition for certiorari is currently due on May 20, 2020. Pursuant to
Rule of Court 30.4, Respondents request that the time for their response be extended
approximately 30 days, up to and including June 22, 2020.
The additional time is necessary so that I may obtain admission to the Bar of this Court, and to enable me to draft the response amid overlapping briefing periods in
cases before the Ninth Circuit Court of Appeals and the California Third District Court of
Appeal.

Respectfully submitted,

a rd
Deputy City Attorney

Counsel of Record
MPW/slt
cc:

Donald E.J. Kilmer, Jr. (Counsel for Petitioners)
Erik S. Jaffe (Of Counsel)
200 East Santa Clara Street, 16th Floor Tower, San Jose, CA 95113-1905 tel (408) 535-1900 fax (408) 998-3131
1709736

CERTIFICATE OF SERVICE
I, Matthew Pritchard, hereby certify that on May 5, 2020, a copy of the attached
letter requesting an extension of time within which to file the City of San Jose's
response was served by first-class mail, postage pre-paid, on the following counsel:
DONALD E.J. KILMER, JR.
(Counsel of Record)
LAW OFFICES OF
DONALD KILMER, P.C.
14085 Silver Ridge Road
Caldwell, Idaho 83607
(408) 264-8489
Don@DKLawOffice.com
CoUnsel for Petitioners
ERIK S. JAFFE
(Counsel of Record)
GENE C. SCHAERR
SCHAERR I JAFFE LLP
1717 K Street, NW
Washington, DC 20006
(202) 787-1060
ejaffe@schaerr-jaffe.com
Of Counsel
A copy of the letter was also sent to counsel electronically on May 5, 2020, at the
email address listed above.

HEW PRITCHARD
Counsel of Record)
Office of the City Attorney
200 East Santa Clara Street,
16th Floor
San Jose, CA 95113-1905
(408) 535-1900
matthew.pritchard@sanjoseca.gov

